<html>
<title> - [H.A.S.C. No. 116-59] EXCEPTIONAL FAMILY MEMBER PROGRAM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-59]

                       EXCEPTIONAL FAMILY MEMBER

                   PROGRAM--ARE THE MILITARY SERVICES

                         REALLY TAKING CARE OF

                            FAMILY MEMBERS?

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 5, 2020

                                      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                              __________


                  U.S. GOVERNMENT PUBLISHING OFFICE

43-664                    WASHINGTON: 2021




                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
                Craig Greene, Professional Staff Member
                 Glen Diehl, Professional Staff Member
                         Danielle Steitz, Clerk
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     3
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Cannon, Edward J., Director, Fleet and Family Readiness, 
  Commander, Navy Installations Command..........................    25
Carrigg, Austin, Advocate for Special Needs Family Members.......    11
Hruska, Kelly, Government Relations Director, National Military 
  Family Association.............................................     5
Inabinet, Norma L., Deputy Director, Military Personnel Programs.    26
Lewis, COL Steve, USA, MS, Deputy Director, Quality of Life Task 
  Force and Family Advocacy Program Manager, Department of the 
  Army...........................................................    24
Norman, Michelle, Advocate for Special Needs Family Members......     9
Nowicki, Jackie, Director, K-12 Education, U.S. Government 
  Accountability Office..........................................    28
Porter, Becky, President and CEO, Military Child Education 
  Coalition......................................................     7
Ruedisueli, Karen, Director, Health Affairs, Military Officers 
  Association of America.........................................     6
Simmer, CAPT Edward, USN, Chief Clinical Officer, TRICARE Health 
  Plans, Defense Health Agency...................................    23
Stevens, Carolyn, Director, Office of Military Family Readiness 
  Policy, Department of Defense..................................    22
Stewart, Jennifer, MSW, Manager, Exceptional Family Member 
  Program, Headquarters United States Marine Corps...............    27

                                APPENDIX

Prepared Statements:

    Cannon, Edward J.............................................   174
    Carrigg, Austin..............................................   120
    Hruska, Kelly................................................    43
    Inabinet, Norma L............................................   179
    Lewis, COL Steve.............................................   169
    Norman, Michelle.............................................    96
    Nowicki, Jackie..............................................   194
    Porter, Becky................................................    88
    Ruedisueli, Karen............................................    59
    Speier, Hon. Jackie..........................................    41
    Stevens, Carolyn, joint with CAPT Edward Simmer..............   149
    Stewart, Jennifer............................................   187

Documents Submitted for the Record:

    Military Special Needs Network Statement for the Record......   213
    National Council on Disability Executive Summary of ``United 
      States Marine Corps Exceptional Family Members: How to 
      Improve Access to Health Care, Special Education, and Long-
      Term Supports and Services for Family Members with 
      Disabilities''.............................................   220
    TRICARE for Kids Coalition Statement for the Record..........   233

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Escobar..................................................   241
    Ms. Speier...................................................   241
    
    

                   EXCEPTIONAL FAMILY MEMBER PROGRAM--
                    ARE THE MILITARY SERVICES REALLY
                     TAKING CARE OF FAMILY MEMBERS?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                       Washington, DC, Wednesday, February 5, 2020.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Good afternoon, everyone. I am Jackie Speier. I 
chair the Military Personnel Subcommittee. We are here very 
interested in hearing from all of you.
    We have an overflow crowd on the outside, and we are going 
to try and accommodate them at another committee room, so they 
can at least hear what is going on in here. By virtue of you 
all being here, you underscore the fact that we have an issue 
that has not gone addressed appropriately, and you have our 
attention.
    In reading the statements of a number of you who are going 
to testify, I was particularly struck by one of the service 
members who said, ``As service members, I was willing to give 
up my life for my country, but families can't be afterthoughts 
in this process.'' And I think that says very powerfully what 
many of you are probably thinking, that somehow the families 
are being taken for granted and not being provided the services 
that they both deserve and are required to have by law.
    We are here today to address longstanding issues impacting 
military families. Throughout my time on this subcommittee, and 
especially since becoming chair, I have heard alarming 
complaints from families and advocates about the efficiency and 
efficacy of the EFMP [Exceptional Family Member Program]. The 
Department and services have been far too slow to respond, 
treating this as some sort of niche issue, when it has 
significant readiness and retention impacts.
    The fact is, parents focused on finding appropriate care 
for their kids will be less focused on their jobs. If we make 
them choose between their families and jobs, they will choose 
their families, as they should. And I don't want to hear that 
this problem is new or novel. Major documented issues in EFMP 
go back years, if not decades.
    I am deeply skeptical that the program has improved over 
time. The services violate both law and DOD [Department of 
Defense] policy when they fail to ensure family members receive 
the medical and administrative support required under EFMP. 
Recent public reporting showed that families have a hard time 
navigating the program, that information in the system is 
inaccurate, and matches aren't consistently made.
    A 2018 GAO [U.S. Government Accountability Office] report 
showed that a lack of common performance metrics makes it 
impossible for the military to properly verify these claims by 
assessing coordination and family support. The news reports and 
letters I have seen on this issue are confirmed by recent 
firsthand experiences shared with me and Ranking Member Kelly.
    Several months ago, we traveled to installations in the 
Pacific Northwest where we repeatedly heard about similar 
struggles that family members have with the program. The 
program is supposed to ensure that proper medical services are 
available for enrolled family members before they are assigned 
to a new duty station. [Yet] we heard over and over that when 
families arrive, the proper services were not available.
    I can only imagine the nightmare of completing a cross-
country move, starting a new job, and then having to struggle 
to get your kids the support they need. This could, in part, be 
because requirements or provider availability haven't been 
verified. That is no excuse and undermines the priorities that 
we ostensibly give to these programs.
    We also heard stories of families having to fight their own 
legal battles with State and local school districts for 
services that schools are legally required to provide with no 
legal support from military services. Families should not have 
to advocate for themselves if the law is on their side.
    And when this subcommittee convened to hear about the 
challenges facing enlisted spouses, we heard repeatedly that 
not only are services insufficient, but that some eligible 
families don't even sign up for EFMP because the stigma is 
considered a career killer.
    That is unacceptable. We are always going to have 
situations where kids and families need a little extra support. 
That reputation should be four-alarm fire warning for program 
implementers.
    These are just three of the common concerns we have heard. 
Without changes to the oversight and policies from DOD and the 
services, I worry these types of issues and many others will 
continue to plague our service members and their families. We 
owe them more.
    Today we will be joined by two panels. The first will 
consist of representatives from military family organizations 
that advocate for families on these issues, as well as two 
parents who have struggled through the system and also advocate 
for other families.
    On the second panel we will have DOD and military service 
officials responsible for the oversight and implementation of 
policies, as well as GAO to discuss their report.
    What I would like to hear from the witnesses today are 
solutions to the problems, some of which may have been 
identified by GAO, but have been slow to be implemented. Others 
may be novel, that we have never heard of before.
    I would like to discuss what else we can do collaboratively 
to improve and raise the program to the world-class level it 
needs to get to. I would also like to know what the services do 
to educate and promote the program and how the services combat 
any associated stigma.
    Before I introduce our first panel, I would like to offer 
Ranking Member Kelly an opportunity to make his opening 
remarks.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 41.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly. Thank you, Chairwoman Speier. First of all, I 
want to say people, more specifically and families, are our 
most precious commodity. And as a warrior who has gone down 
range, our warriors and their families are here to fight and 
win our Nation's wars. Warriors can't do that if things aren't 
properly taken care of at home. They can't focus. They can't do 
the things that are necessary if they can't be 100 percent sure 
that their families are being taken care of at home.
    They can only focus on their mission if they know 
everything home is well, and today I think our EFMP, 
Exceptional Family Member Program, is not making sure that our 
warriors have that peace of mind. It is important that they 
have that peace of mind.
    There are many things that we can do, and I am looking for 
hearing solutions. But I thank each of the witnesses here for 
being here today. I thank you for telling your stories, but I 
want to hear real solutions, and I want to hear how to get it 
right and to get it right now.
    Our families are too important to have a solution that is 
in the future. We have to start making positive strides 
immediately.
    Let me start by saying our military families are a vital 
component, maybe the most important component to overall 
readiness to the Armed Forces. Our military families endure 
deployments, training cycles, frequent moves, and many new 
beginnings. Our military families are challenged in so many 
ways, yet time and again they find a way to succeed and try to 
make the best out of any situation. My hat is off to all of 
you. Thank you.
    Now let's think about the other side of the equation. If 
our service members are deployed and away for training, they 
will not be fully effective if they worry about what is going 
on back home. When a service member knows their family is taken 
care of, they are more ready to focus on the mission at hand. 
EFMP is about readiness.
    When we think about EFMP, it's important to understand the 
scope of those impacted. At last count, there are over 103,000 
sponsors and over 139,000 family members across DOD that are in 
EFMP. That means roughly 8 percent of the military and 9 
percent of the family members are enrolled in EFMP.
    The Exceptional Family Member Program is charged with 
taking care of those military family members with special 
needs. The program was established to ease the burden of 
finding specialized healthcare providers, school systems with 
dedicated support services, and community support assistance. 
It is also supported to assist service members in the 
assignment coordination process. We know what the program 
should be doing, but is it carrying out its mandate?
    This past October, Chairwoman Speier and I hosted a 
roundtable discussion with enlisted spouses on financial 
literacy and military family support programs. The discussion 
quickly evolved and became consumed with challenges surrounding 
the Exceptional Family Member Program.
    I think some of you on Panel 2 were here for that 
discussion. We heard repeatedly about issues with the 
assignment process, access to medical services, and a 
perception by a few that enrollment in EFMP would be a career 
killer.
    We wanted to understand this at an installation level, so 
in November, Chairwoman Speier and I traveled to Joint Base 
Lewis-McChord and had several meetings with spouses and service 
members. And every one of those meetings we again heard about 
challenges with EFMP.
    One of the comments that stuck with me came from a spouse 
that said, ``Why would they move our family from a duty station 
where we had the established health care, education, and family 
services that we needed to a duty station where we were 
challenged to find any of these things?'' It is a good 
question.
    As I prepared for this hearing, and read some of my witness 
statements, I scratched my head even more. Some of these issues 
have been around for a long, long time, and things don't seem 
to be changing. I am looking forward to hearing the 
perspectives of EFMP from Panel 1. Then I want to understand 
from Panel 2 how DOD and the services are addressing these EFMP 
issues and the roadmap forward.
    Once again, I want to thank our witnesses for their 
dedication to our military families, and our chairwoman for 
having a hearing on this important topic.
    Thank you, Chairwoman.
    Ms. Speier. Thank you, Ranking Member Kelly.
    Each witness will have the opportunity to present his or 
her testimony, and each member will have an opportunity to 
question the witnesses for 5 minutes. We respectfully ask the 
witnesses to summarize their testimony in 5 minutes or less. 
Your written comments and statements will be made part of the 
hearing record.
    I ask unanimous consent to accept the following submitted 
additional written testimony from the Military Special Needs 
Network, the National Council on Disabilities' Executive 
Summary of the United States Marine Corps Exceptional Family 
Members, and TRICARE for Kids Coalition, into the record.
    Mr. Kelly. Without objection.
    Ms. Speier. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
beginning on page 213.]
    Ms. Speier. Let's welcome our first panel. First, Ms. Kelly 
Hruska, Government Relations Director for the National Military 
Family Association; Ms. Karen Ruedisueli, Director of Health 
Affairs for Military Officers Association of America; Dr. Becky 
Porter, President and CEO [Chief Executive Officer] of Military 
Child Education Coalition; Michelle Norman, Navy spouse, 2019 
Armed Forces Insurance Navy Spouse of the Year, co-founder of 
Parents for FAPE [Free Appropriate Public Education]; Austin 
Carrigg, Army spouse and special needs advocate.
    We welcome you all here today.
    All right. Please begin.

   STATEMENT OF KELLY HRUSKA, GOVERNMENT RELATIONS DIRECTOR, 
              NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Hruska. Madam Chairwoman, Ranking Member Kelly, and 
members of the subcommittee, thank you for the opportunity to 
present testimony concerning the Exceptional Family Member 
Program. We appreciate your recognition of the service and 
sacrifice of military families, as well as the unique 
challenges facing families who have a child or other family 
member with special needs. Your response through legislation to 
the ever-changing need for support has resulted in programs and 
policies that have helped sustain these families through 
difficult times.
    Military families complain EFMP assignment coordination is 
not thorough. Some say they are sent to areas with insufficient 
medical or educational assets to meet their needs. In other 
cases, providers exist, but long wait lists preclude access.
    This seemed to be a problem for families with children in 
the autism spectrum at Joint Base Lewis-McChord [JBLM]. Many 
families being sent to JBLM report long wait lists for 
therapies, even with the opening of the Center for Autism 
Resources, Education, and Services. We ask Congress to require 
DOD to develop and publish performance metrics to evaluate 
assignment coordination effectiveness, to include evaluation of 
capacity of the available medical services and therapies, and 
not just a yes/no availability.
    Our association believes there needs to be more 
transparency in the assignment coordination process. Assignment 
coordinators need to provide more explanation to service 
members when they are not screened for an assignment. It is not 
uncommon to hear from families that they did not screen for an 
overseas assignment, but they know someone else with a similar 
diagnoses in their desired location.
    There are many reasons why families could be denied. 
Possibly that healthcare specialty is at capacity or a provider 
has just recently transferred from the duty station. Without a 
proper explanation, the family makes assumptions and then 
present those assumptions as fact.
    Service members also need to be more transparent in the 
assignment coordination process. A recent report on the well-
being of military families noted families enrolled in the EFMP 
express concerns regarding stigma surrounding special needs 
family members and military career advancement.
    Some family members don't enroll their family members in 
EFMP, even though enrollment is mandatory for Active Duty 
service members with a family member with special needs, 
because they are concerned it will hurt their career 
progression.
    Some service members have moved their families overseas 
without command sponsorship because they were told there wasn't 
adequate medical or educational services in their gaining 
location. While service members may not be able to have it all, 
open communication may allow them to have a long and satisfying 
military career while their family has access to the proper 
educational and medical supports and resources along the way.
    A 2018 GAO report on EFMP indicates each service uses 
various mechanisms to monitor how service members are assigned 
to installations, but the report contains no details on how the 
individual services are monitoring assignment coordination 
effectiveness.
    We agree with GAO's recommendations that the Office of 
Special Needs [OSN] develop performance metrics for assignment 
coordination. Specifically, OSN should develop common 
assignment coordination performance metrics across the 
services. Metrics should include measures of military family 
satisfaction with the assignment coordination process focused 
on the ability to obtain necessary medical care at the gaining 
installation.
    Metrics should track compassionate reassignments, off-
schedule PCS [permanent change of station] moves due to 
inadequate medical resources at the gaining installation, for 
EFMP families approved for that location. Compassionate 
reassignments of this nature indicate system failure and should 
be monitored to identify and address process breakdowns.
    Metrics should be reported on the installation level to 
provide actionable information. While our association and 
military families may be frustrated with the slow pace of 
process and service improvement, it is important to note that 
DOD and the services offer many services and supports to help 
our special needs families successfully navigate military life.
    We appreciate the help Congress has provided over the years 
and look forward to continuing to work together to ensure the 
system works for everyone.
    [The prepared statement of Ms. Hruska can be found in the 
Appendix on page 43.]

   STATEMENT OF KAREN RUEDISUELI, DIRECTOR, HEALTH AFFAIRS, 
            MILITARY OFFICERS ASSOCIATION OF AMERICA

    Ms. Ruedisueli. Chairwoman Speier, Ranking Member Kelly, 
and members of the subcommittee, thank you for hosting this 
hearing on the Exceptional Family Member Program and inviting 
me to speak on behalf of the Military Officers Association of 
America and the families we serve.
    We appreciate this opportunity to speak about EFMP with a 
focus on access to medical care. The EFMP is an important tool 
for ensuring military families are not sent to locations that 
lack necessary medical and educational services for their 
special needs family members.
    This topic is especially important given recent study 
findings by the Children's Hospital of Philadelphia PolicyLab 
that indicate military kids are 40 percent more likely than 
civilian kids to have at least one special healthcare need. 
PolicyLab's research also found that military families reported 
worse healthcare access and lower quality care than their 
civilian counterparts.
    Surely some of this is due to challenges all military 
families face with reestablishing care after repeated PCS 
moves. However, we also know there are numerous issues with the 
military health system and EFMP that must be addressed to 
narrow these gaps in access and quality of care.
    Some EFMP families report that the medical screening 
process does not always work as intended, and families are 
sometimes approved for areas that may have providers but not 
appointments, or at least not without a long wait list. EFMP 
medical screening must not only identify providers at the 
gaining location, but also better determine actual appointment 
availability.
    While critical, improved medical screening alone won't 
address gaps in care. Current TRICARE Prime policy requires 
families to PCS before they can transfer their TRICARE 
enrollment, schedule an appointment with the new primary care 
manager [PCM], get specialty care referrals from the PCM, and 
then wait for those referrals to be processed. Only then can 
families contact specialty providers at their new location to 
make appointments.
    This means some EFMP families report a 1- to 2-month gap in 
care before they even get on specialist wait lists. This 
process could be streamlined and disruptions in care minimized 
by allowing families to get specialty care referrals for the 
gaining location before they PCS.
    Although not part of EFMP, another important program for 
military special needs families is the TRICARE Extended Care 
Health Option, or ECHO. Congress established ECHO as a 
substitute for state Medicaid waiver services that often have 
wait lists and are unavailable to mobile military families who 
never reach the top of the list before they move on.
    The current ECHO respite level of 16 hours per month 
disadvantages military families relative to Medicaid waiver 
recipients who get on average 58 respite hours per month. We 
urge DOD and Congress to increase ECHO respite to bring it on 
par with Medicaid.
    EFMP families face many challenges in navigating military 
life while also caring for their special needs family members. 
We appreciate that Congress and DOD established EFMP to ensure 
families can access needed medical care, but it is falling 
short of serving families as intended.
    With the PolicyLab study, we now have evidence that 
military families, and particularly those with special needs, 
face greater problems with access and quality of care than 
their civilian counterparts. These problems must be addressed 
to ensure military health care is an unmitigated benefit, not 
another sacrifice to add to the many that service members and 
their families already make in support of our Nation.
    We appreciate the subcommittee's attention to these issues 
and look forward to answering your questions.
    [The prepared statement of Ms. Ruedisueli can be found in 
the Appendix on page 59.]
    Ms. Speier. Thank you.
    Ms. Norman.

 STATEMENT OF BECKY PORTER, PRESIDENT AND CEO, MILITARY CHILD 
                      EDUCATION COALITION

    Dr. Porter. Chairwoman Speier, Ranking Member Kelly, and 
members of the Military Personnel Subcommittee, thank you for 
the invitation to be here today.
    The Military Child Education Coalition is a globally 
recognized nonprofit that works to ensure inclusive, quality 
educational opportunities for all military-connected children 
affected by mobility, transitions, deployments, and family 
separation.
    Given our mission, we are not infrequently contacted by 
family members who have concerns or questions about their 
children's education. In recent months, it has come to our 
attention that an apparently growing number of military-
connected parents of children with special needs feel that the 
basic education needs of their children are not being 
adequately or appropriately addressed by the schools they 
attend.
    Moreover, their efforts to garner assistance through the 
Exceptional Family Member Program or the military 
installation's school liaison officers are largely ineffective. 
Several families reported to us that the EFMP is broken, 
clearing them for assignment to locations where nearby schools 
do not have the resources to meet their children's educational 
needs. According to their reports, many families undergo undue 
emotional and financial stress as a result.
    A theme for many EFMP families is that they have to 
repeatedly fight for basic special education services. What is 
especially difficult for these families is the fact that even 
if they are able to eventually get some modicum of appropriate 
support for their children with special needs, it might be just 
as the service member receives orders to move, and the process 
starts all over again in a new State, with a new school 
district, and new special education processes and resources.
    The interruption in services and instruction and the 
prolonged period to reestablish an appropriate individualized 
education plan take precious time during which children with 
special needs may regress and ultimately require even more 
support.
    This paradigm, compounded over multiple PCS cycles, adds up 
to years of lost learning and development. Some families are 
deciding to remain at a location where they have established 
qualified individualized services while the service member PCSs 
to the new duty station.
    This decision puts additional stress on the family--much as 
separation from a deployment would--and forces the spouse to 
manage all of the requisite meetings and appointments, not to 
mention the needs of the other children in the family, without 
the benefit of the service member being present to assist.
    Other families are deciding to school their children at 
home where they feel they can more adequately control their 
children's individual instruction, medical appointments, and 
academic schedule. The spouses in these families take on an 
incredible burden when they feel the service member has been 
assigned to a location that clearly cannot meet their needs, 
and not all spouses have the necessary skill set, education, or 
financial means to accomplish home schooling responsibly.
    While we have heard from some families that there are 
installations where EFMP works well, and school systems work 
proactively to meet the needs of their children, we have heard 
far more reports of varying standards and poor execution of the 
EFMP. School liaison officers are often not trained or lack the 
time to adequately assist in accessing the necessary services 
for children with special education needs.
    As a coalition, we want to partner on a collaborative 
solution. We think that solution should include all of the 
stakeholders. Among the other recommendations in our written 
testimony, we suggest a coordination that seems to be a major 
issue. We recommend a person at each installation be identified 
with the sole mission of providing liaison among the school 
liaison officers and EFMP coordinators, not a handout and not a 
website, but a hands-on solution.
    I would like to thank the members of the subcommittee for 
your interest in this very important issue, and I look forward 
to your questions.
    [The prepared statement of Dr. Porter can be found in the 
Appendix on page 88.]
    Ms. Speier. Thank you, Dr. Porter.
    Ms. Norman.

STATEMENT OF MICHELLE NORMAN, ADVOCATE FOR SPECIAL NEEDS FAMILY 
                            MEMBERS

    Ms. Norman. Madam Chairwoman, Ranking Member Kelly, and 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss EFMP and special education challenges 
our military families face.
    I am a proud Navy spouse of 25 years. My husband Cassidy 
currently commands the forward-deployed USS Mount Whitney. We 
have moved 10 times and have spent over 3 years geographically 
separated.
    Our children and I were not able to move overseas with him 
due to our EFMP status. In 2003, our lives changed drastically 
when my daughter Marissa was born prematurely at 27 weeks 
weighing 2 pounds, 3 ounces. She lived in the NICU [neonatal 
intensive care unit] for 8 months and has 21 diagnosed 
disabilities. Providing opportunities for Marissa, including 
those required by Federal law, has taken an incredible toll on 
us, both emotionally and financially.
    In 2014, Marissa entered Virginia Beach City Public Schools 
with an Individualized Education Program, known as an IEP. In 
the first 30 days, goals and services were removed. The school 
continued this pattern of minimizing Marissa's disabilities and 
telling us that everything was fine. Our concerns were 
discounted. This is common for many EFMP families, to be 
gaslighted.
    When we pushed back, meetings became hostile, not 
collaborative, and, worse, the school district was not allowing 
her access to the education as outlined in her IEP. Imagine how 
hard this was for Marissa. She regressed socially and 
academically, failing all benchmark testing.
    To make matters worse, Cassidy was out of State for 22 
months. Meanwhile, school officials kept asking when we would 
receive military orders, following the same pattern of school 
districts waiting us out that military families all across the 
U.S. had experienced.
    Stressed and exhausted, I called the EFMP case manager. She 
told me that they could not advocate for families. Similarly, 
the parent liaison couldn't help, the SLO [School Liaison 
Officer] couldn't help, the VDOE [Virginia Department of 
Education] couldn't help, and the JAG [Judge Advocate General] 
couldn't help. Only the Marine Corps has attorneys for their 
EFMP families.
    So this is a problem. When we know a school is breaking the 
law by not implementing an appropriate IEP, how do we hold a 
school accountable? Webinars and Military OneSource information 
do not hold any weight in an IEP meeting. If parents speak out 
publicly, they and their children suffer from reprisal from the 
school district.
    We knew we needed to try to do the right thing, not just 
for us but for others who do not have a voice. We borrowed 
money, hired a special education attorney, and placed Marissa 
in a private school--a decision that improved her life 
significantly, even though she had to repeat fifth grade.
    We won our first due process hearing in 2016. We won an 
appeal to the Fourth Circuit Court in 2018, and we won numerous 
VDOE State complaints in between, yet Virginia Beach refused to 
comply with the orders from VDOE, a hearing officer, and a 
Federal district judge. A few days after Christmas last year, 
right before Cassidy was to leave for a 15-month overseas 
deployment, Virginia Beach sued my daughter to get her back in 
public school.
    The Individuals with Disabilities Education Act was now 
being used as a weapon against my family. Marissa has now 
testified twice. It will literally take her years of therapy 
for her to heal from the trauma and anxiety the school district 
created.
    But this story is not just about Marissa. It is about the 
tens of thousands of military families in EFMP. If, after 
spending over $220,000 in legal expenses out of our own pockets 
and winning all legal decisions, the school district with deep 
pockets of taxpayer money continues to violate law with 
impunity and without penalty, how can an enlisted service 
member even begin to fight?
    Our deployed service members are distracted and worried 
about their children while their spouses are being forced to 
fight an unfair fight for education already mandated by law. We 
are too burdened, too scared of reprisal, too tired, too spent 
on deployments, and too broke to obtain the resources our 
children need. That is why we need data and legislation to 
universally fix EFMP.
    Recognizing we need more data on special education, we 
worked with congressional leaders to insert language in the 
NDAA [National Defense Authorization Act] 2020 to mandate DOD 
study those challenges. After presenting at the Congressional 
Military Families Caucus Summit last October, three military 
spouses and I designed a special education survey.
    The results confirmed that special education is an unspoken 
challenge for military families, illustrating systemic problems 
that transcends all ranks and all services for military 
families at duty stations across the world.
    At the request of the military family caucus, we drafted 
the PROMISE [Protecting the Rights of Military children In 
Special Education] Act to provide safeguards for military 
children with special needs, provide accountability and 
transparency of taxpayer dollars, and support military families 
forced to pursue due process.
    We love our teachers, and we all agree that more funding 
will help. Yet the survey shows that providing more Impact Aid 
to EFMP-centric school districts years ago did not help. 
Ironically, those schools were among the worst offenders for 
special education violations. We have to establish 
accountability and transparency.
    In conclusion, access to reliable special education 
resources affects and touches all citizens in our society, and 
the lack of access impacts thousands who serve this great 
country. Military families and children are suffering, which in 
turn is severely impacting military readiness and retention. 
With the PROMISE Act, we can fix this. Let's do the right thing 
and fix it.
    Thank you.
    [The prepared statement of Ms. Norman can be found in the 
Appendix on page 96.]
    Ms. Speier. Thank you.
    Ms. Carrigg.

STATEMENT OF AUSTIN CARRIGG, ADVOCATE FOR SPECIAL NEEDS FAMILY 
                            MEMBERS

    Ms. Carrigg. I would like to thank Chairman Speier, Ranking 
Member Kelly, and members of the subcommittee for this 
opportunity to speak before you about the EFMP program. My 
husband has been Active Duty for 17 years and is now a first 
sergeant in the Old Guard.
    During his career, we have been through five PCS moves, and 
my husband has deployed and gone to training away from our 
family more times than I can count, often while our children 
were in crisis or in the hospital. It was at my husband's 
fourth duty station, while on a compassionate reassignment for 
our son, that we brought our daughter Melanie home. What should 
have been the most exciting time of our lives turned into a 
nightmare.
    Melanie was born with Down Syndrome and a congenital heart 
defect that would lead to her hospitalization just 3 days after 
joining our family. We learned that in order to survive she 
would need open-heart surgery at 8 weeks old. The process to 
get her covered by TRICARE would be long and protracted, and to 
do so we would be forced to drive to the nearest Army Guard 
base to complete the paperwork, then wait for it to be 
processed.
    The process could not be expedited, and our daughter's 
surgery could not wait. As we met with the hospital's finance 
department, they explained that we needed to put down a 10 
percent deposit to proceed with surgery, and the deposit was 
$100,000. Ultimately, the cost of saving my daughter's life was 
$1 million, and time was not on our side.
    Someone suggested we explore Medicaid as an option, and I 
am thrilled to share with you today that thanks to Medicaid 
coverage she had a successful open-heart surgery. For any 
family, this alone would have been the most stressful event of 
their lives.
    However, it was while Melanie was in the hospital 
recovering that we were told my husband had two options. He 
could move our family for his upcoming PCS or voluntarily 
separate from the Army. He begged for alternative, explaining 
that he deeply valued his military career and most certainly 
did not want to separate, but that our daughter simply could 
not be discharged so quickly after surgery.
    The response he received is seared in our memories. While 
sitting at her bedside in cardiac ICU [intensive care unit], he 
received a phone call from Army Branch. The room was full of 
doctors on morning rounds, and my husband was told, ``Maybe you 
can return that one and get a different one once you are 
there'' in regards to our newly adopted daughter.
    The conversation happened on speakerphone and the entire 
room went silent upon hearing those words. This is the moment 
we realized our family meant nothing to the military. We 
reached out to the gaining station's EFMP office only to be 
told there was nothing they could do. All of our children's 
needed services were available in the local area, and 3 weeks 
later I was forced to discharge my daughter against doctor's 
advice because we didn't have the finances to support two 
households.
    Once we arrived, it became clear that although services 
were available in the area, the wait lists were over a year 
long for some specialties. Our first stop to the EFMP office 
was where I begged them for help. I remember explicitly asking, 
``You said there was care. You know there is a 28-day standard. 
Where did you find the providers you did to bring our family 
here?''
    The EFMP provider replied, ``It is not our job to check or 
track wait lists. We just look at the TRICARE website to see if 
a provider is listed and taking new patients.''
    It took us 2\1/2\ years of fighting and 2\1/2\ years of 
heartache and 2\1/2\ years of constant stress and 2\1/2\ years 
of delayed and inefficient care for our children before we were 
able to get out of there.
    In 2015, my husband was granted a compassionate 
reassignment to the metro DC region. Here my family has 
unequivocally received better medical care than anywhere my 
husband has ever been stationed in his career, but that means 
we access care across three States and the District of 
Columbia.
    The move, from an education standpoint, has been flat-out 
dismal. In the 5 years since we arrived here, we have had to 
sue the local school district three times on behalf of our 
sons, and we are currently in the middle of a due process 
complaint on behalf of our daughter, as well as two Federal 
complaints because she has been excluded from school for 2 
years.
    Earlier I mentioned my daughter had surgery covered by 
Medicaid, but that is not where her need for Medicaid ended. 
Despite having ECHO, which was supposed to be the military's 
answer for things not covered by TRICARE--I am sorry. Despite 
having ECHO, which was supposed to be the military's answer for 
families like mine needing Medicaid, we still rely heavily on 
it for things not covered by TRICARE, such as a continuous 
glucose monitor that alerts us to dangerously low blood sugar 
levels that can cause long-term neurological damage.
    Secretary of Defense Esper recently said, ``I understand 
well the sacrifices our service members and their families make 
to protect this great country. This is why I am committed to 
taking care of families and assuring they have the resources 
they need to thrive.''
    One thing I know beyond a shadow of a doubt is that your 
military members living with children on EFMP are far more 
resilient than those that are not. The skill set to remain calm 
under constant pressure while juggling life-or-death decisions 
is a skill we know the military needs and our families practice 
daily.
    I wish I could say that my family is alone in the things 
that we have experienced and the opportunities that we have 
lost, but I have spent the last 7 years advocating for families 
like mine, and I would implore you to read my written testimony 
about Willow, whose father was stationed at an installation 
without a required neurosurgeon and has suffered loss of vision 
in one eye because of it; about the Olson family who is dual 
military and has been forced to initiate the retirement process 
and separate their twins to assure appropriate and timely 
medical care.
    I could continue on for hours with the stories of the 
families I have assisted, the families who the military has 
failed. Why does the DOD continue to fail on issues like this, 
whether it is housing where we allow contractors to risk the 
health and well-being of our families, childcare, health care, 
or special needs children?
    [The prepared statement of Ms. Carrigg can be found in the 
Appendix on page 120.]
    Ms. Speier. Thank you all, in particular Ms. Norman and Ms. 
Carrigg, for those profound and gut-wrenching words.
    Now, I don't actually know where we should start. And let 
me disclose as well that, as a mother of two children, one of 
my children had an IEP. So I am very familiar with the process. 
She was diagnosed with auditory processing disorder, ADHD 
[attention-deficit/hyperactivity disorder], and OCD [obsessive-
compulsive disorder].
    So while I haven't traveled the same roads that all of you 
have traveled, I have some experience in knowing what the 
process is like.
    It would seem to me, based on the testimony of our two 
mothers here, that what we need more than anything are 
dedicated legal personnel at each base that can provide the 
legal advice and counsel for families as they try to get the 
IEP for their children that they deserve. Do you have any 
comments on that?
    Ms. Norman. I agree with you, Chairwoman Speier. The Marine 
Corps does a really good job. They do offer special education 
attorneys on both coasts, and they offer extensive training to 
their EFMP case coordinators as well, who are able to attend 
IEP meetings and work in conjunction with the special education 
attorneys.
    I think that their model exists, and we do not need to 
reinvent the wheel. We just need all of the other branches to 
follow their lead.
    Ms. Speier. Thank you.
    Ms. Carrigg, do you have anything that you would like to 
add?
    Ms. Carrigg. I think it is important to remember that even 
if we have the attorneys in place, that is a great first step, 
but schools are not following the law because they know they 
cannot follow the law and be allowed to get away with it 
because we are going to be moved. There needs to be something 
else in place that holds them accountable.
    They are getting Impact Aid. There is no reason that aid 
isn't going towards our children with disabilities. And they 
are not telling us where it is going. Nobody knows where the 
money that they are receiving for military children is actually 
being used in the school districts. There should be 
accountability.
    Ms. Speier. I would agree with that.
    Dr. Porter, you reference a study that was done that showed 
that the children of military families were 40 percent more 
likely to have at least one special healthcare need than the 
civilian population. Can you expand on that further?
    Ms. Ruedisueli. That was actually me, yes. Last summer, the 
Children's Hospital of Philadelphia did a research study using 
a panel database called the Medical Expenditure Panel Survey, I 
believe, that asks families a variety of questions about their 
access to care, their health conditions for their children.
    It also asks what coverage they get from--you know, where 
their source of healthcare coverage is. That is how they are 
able to pull out military families as identified by their 
TRICARE coverage. And in that survey, it was 40 percent--it was 
a 40 percent higher rate of special needs among military-
connected families versus civilian families or families who did 
not get their insurance through TRICARE.
    We speculate that, you know, there is a lot of challenges 
to getting medical care when you are moving regularly, and that 
that contributes to some of that reporting in terms of access 
challenges. But we are also aware of many issues within EFMP 
and the military health system that can contribute to access 
problems, like appointment shortages in the direct care system, 
the many assignment process issues that we have talked about 
here today.
    Ms. Speier. When we were visiting in the Pacific Northwest, 
what kept coming up were the number of families with children 
with autism. Have there been any studies that address the 
incidence of autism? Is it equal to what it is in the civilian 
population, or is there a higher incidence?
    Ms. Ruedisueli. I am not sure about autism specifically. 
Behavioral health diagnoses are 35 percent more likely in 
military families versus civilian families per this research 
study that was done, and that does include autism as part of 
the behavioral health diagnoses.
    Ms. Speier. Can you define what else is in behavioral 
health?
    Ms. Ruedisueli. Things like ADHD, anxiety, adjustment 
disorder.
    Ms. Speier. All right. Thank you.
    Dr. Porter, you indicated that in your experience you have 
seen some EFMP programs that work well. Can you identify any 
specifically?
    Dr. Porter. Madam Chairwoman, I cannot identify them 
specifically. The way that they were communicated to us was 
mostly in the way of a family saying, ``We had everything set 
up finally, and then we had to move.'' They did note that there 
were some places where it worked better than others, but they 
did not specify where they were.
    Ms. Speier. All right. And, finally, let me just ask about 
these EFMP coordinators. Are they sufficiently educated in 
their roles to provide advice, or are they basically just 
railway conductors sending people from one location to another?
    Ms. Hruska. Our association has heard a mixed review of 
EFMP coordinators. There are I think, unfortunately, like many 
services provided that sometimes the assistance that is 
provided is only good--as good as the person sitting in the 
seat. So we have heard from families that they have received 
outstanding service from individuals at installations across 
the country--I want to say Fort Bragg comes to mind--that they 
have a systems navigator there that we have heard a lot of 
really positive feedback about.
    But then there are others that find that the path of least 
resistance is it is easier just to say, ``Oh, I am sorry, you 
know, here is a website.'' And so there is some inconsistency 
there.
    I think that there are some really dedicated professionals 
out there that truly want to help families. I think it is just, 
again, inconsistent.
    Ms. Speier. All right. My time has expired.
    Ranking Member Kelly.
    Mr. Kelly. Thank you, Chairwoman Speier. And thank you, 
witnesses. And thank you for telling us your story, and more 
importantly telling us what is wrong, so that we can try to 
figure out what to do to make it better.
    The first thing, Chairwoman Speier, is that this--it is 
shocking to me that we have public school systems that are 
denying care against Federal law. That is outside of our 
purview, but we need to figure out something to make sure we 
can enforce that.
    Ms. Speier. Would the gentleman yield?
    Mr. Kelly. Yes, ma'am.
    Ms. Speier. I was also taken by one of the comments that 
they will, quote, ``wait you out,'' because they know you are a 
military family, so if they wait long enough, you will just be 
PCSed somewhere else. And that appears to be one of the 
techniques that is used.
    Go ahead.
    Mr. Kelly. I think you and I can be very bipartisan on that 
issue.
    Ms. Speier. I think we can.
    Mr. Kelly. Second, you know, the Marine Corps has a system 
that is at least partially working and doing things with legal 
aid, okay? And I think the DOD folks in the back need to be 
listening to that. When we have something that works, we don't 
need to reinvent the wheel. We need to use it and apply it.
    So that makes it better for everyone. So I just encourage 
DOD to think about looking at what the Marine Corps is doing 
because it is right.
    As to the panel--and this is any of you--are you aware of 
any civilian programs that are similar or on the same level as 
EFMP that are working right or that we can get good ideas from 
or develop or to see how to make it work better?
    Ms. Ruedisueli. I would just say--and I focus on medical 
issues--I would say there needs to be an improvement to medical 
case management, so that it is more akin to what you find in 
high-performing civilian hospitals. In civilian children's 
hospitals, if a child is brought in as an in-patient, the case 
managers or social workers proactively approach the families 
and start asking, ``Have you thought about this? Have you 
thought about this? Do you need a letter stating the condition 
of your child, so that you can get some time off work? Do you 
need us--our support in any way?'' And they start proactively 
raising issues.
    I think that is lacking within the military system. The 
case management is fragmented. There is no medical component to 
case management within EFMP, so once EFMP identifies the family 
member, and once they are screened for the assignment, their 
responsibility on the medical end is over.
    And so if the family encounters problems once they get to 
the new duty station with medical issues, there really isn't an 
EFMP resource to help them. So I would recommend highly 
improved case management in line with high-quality civilian 
hospitals.
    Mr. Kelly. Thank you.
    And for our two service members--I consider you service 
members. When you are a spouse, I mean, you guys serve as much 
as the guys in. Do you think that the military families should 
be able to opt in and out very easily? Because there are--
sometimes there are certain jobs and key assignments that you 
want to take, and you are willing to opt out because there is a 
sacrifice, but it means a promotion later, and sometimes you 
want to opt back in. But it should be the service member--do 
you think maybe it should be the service member's choice to opt 
in and out and not necessarily--because once you are in now, 
you are in, and many times it costs you assignments which could 
be career progression assignments.
    Ms. Carrigg. So I think that can be tricky. I think that it 
is not a matter of opting in or out. I think it is a matter of 
offering a family an assignment together with your family or 
offering your family an assignment that perhaps you couldn't 
have with them that you can move on with your career, because 
it is extremely difficult to get out of EFMP. It is a lot of 
paperwork. If a child dies, a family has to go through a 
process to have that child removed from their EFMP packet, once 
it has expired.
    So it should be a matter of assignments. Here is an 
assignment with your family. Here is an assignment without your 
family, and you can choose which one you want.
    Mr. Kelly. Absolutely. I think you answered my question, 
and I agree wholeheartedly. It shouldn't be that hard to get 
out or to waive or do something. You shouldn't just--it 
shouldn't affect your whole career when the circumstances no 
longer apply--a child is emancipated or you decide there is 
something different.
    What should DOD focus on first in the EFMP program to make 
immediate gains?
    Ms. Norman. I think the first thing we should do to make 
immediate gains is to standardize EFMP among the branches. That 
is definitely number one. And I think when you do that, we can 
start taking a look at the special education piece, and we just 
need to force school districts to follow the law and hold 
people accountable.
    You know, Federal funding needs to be transparent, and it 
needs to be auditable. This is Federal funding. So we can start 
working towards that solution with passing the PROMISE Act and 
looking at those initiatives to bring in that transparency.
    Mr. Kelly. I agree with the--across the spectrum, we don't 
need to have four different systems. And number two is, I think 
we can look--maybe DOJ [Department of Justice] or somebody is 
listening right now, because if all the school systems around 
these places are doing the same thing, maybe we need to turn up 
the heat from this level, so they understand we mean business. 
You are going to take care of our soldiers, sailors, airmen, 
Marines, and their families and their kids.
    And with that, I yield back, Chairwoman.
    Ms. Speier. Thank you, Mr. Kelly.
    You know, we actually have to look in our own house as we 
address this issue, because we don't fund the IDEA [Individuals 
with Disabilities Education Act] program at the level we are 
supposed to. I think we only fund it--and maybe Ms. Davis can 
respond to this--at 40 percent. So school districts are 
underfunded by the Federal Government for these services, and 
so they look at ways to cut costs.
    We might even want to look at this additional funding we 
give school districts near bases and give it to the families to 
use that money for personal services in lieu of that as maybe 
another way of looking at it.
    Mrs. Davis, you are recognized.
    Mrs. Davis. Thank you, Madam Chair, and thank you all for 
being here and sharing your very compelling stories and your 
background and working with this for such a long time. It 
saddens me because we actually had worked hard, as we went into 
Iraq and Afghanistan, to try and be far more responsive to 
families, because initially there was really no there there 
when it came to the kind of resources, and I think the culture 
of acknowledging the critically, critically important role of 
families in readiness, as well as just about everything else, 
you know, when it comes to our national security.
    What I wanted to try and sort out a little bit--and, again, 
I was a school board member as well. And so I know how hard and 
yet how--I don't want to say difficult because everybody knew 
what job had--the job that had to be done. And yet I think our 
schools, because--we talk about 40 percent. We are supposed to 
be funding special needs at 40 percent. We are nowhere near 
there, and that is part of the thing. So we have got to look in 
the mirror on that, too.
    And I have always been struck by, I can't think of a more 
bipartisan important issue for Members of Congress to deal 
with, and yet, you know, we fall short continually, and that 
puts it all on local school districts. But I want to ask you a 
little bit about that, because you seem to be saying--and I 
think it is a very important thing to try and bring attention 
to--that there is resources.
    We don't have the resources, whether it is in Impact Aid, 
or whether it is generally the amount of money that goes 
towards special education, so that has to be changed. But 
culture also plays an important role, and that whole idea that 
somehow people feel that their careers would be impacted if 
they come forward and say they need to take advantage of any 
policy that is out there that they can access, that that hurts 
them.
    So if you could just, whoever wants to respond to this, I 
mean, how big a role does culture play? And that seems like 
something that we absolutely have to be able to address. Do you 
want to--whoever wants to start.
    Ms. Hruska. I will. I think that the EFMP and the Office of 
Special Needs tries to reinforce that enrollment in EFMP is not 
going to be a career-killer and tries to address those 
concerns. But I think the problem is that we also--you know, it 
is one thing to say something, but then it is another thing to 
get to the deck plates, or to the service leadership and they 
have to model that as well.
    And it is our experience that that always hasn't been the 
case. We were contacted 2 years ago by a loop [aide] of an Army 
general who had been told that he wasn't going to be getting an 
assignment, because he had a special needs family member and 
was going overseas. And his aide was trying to figure out how 
they could get around it.
    And I was struck as I talked with him that, I mean, here is 
an opportunity for a leader to be modeling behavior for their 
service members, and to say that this is an important--this is 
important and you need to address it, and it is not a career-
killer. And they weren't doing that.
    And so I think it takes more than just the Office of 
Special Needs and the services to say something, that behavior 
has to be modeled by the services and the leadership as well.
    Mrs. Davis. And I don't know whether--and I want to ask 
this of the DOD as well--is how much time and effort is spent 
in--whether it is orientation or whether it is really learning 
seminars to help educate our leaders about these issues? 
Because it may be that in many cases they don't get it. You 
know, they get it if they have had that experience. But if they 
haven't, they may not.
    So that is something that we need to look at. We face this 
in sexual harassment, sexual assault issues, you know, of--we 
can't guarantee that everybody is going to come out of an 
experience utilizing the information that they should have 
received. But you can at least expose them, and I think that 
that is something that we need to take a harder look at. And 
you might have had some experience with that and can help us 
out because that educational piece is really quite important.
    I am pleased to hear that the--and I know that the Marines 
are doing this better. I mean, I think that what we have to do 
is embed legal experts with--on these issues. We have learned a 
lot about the National Guard and how we embed our behavioral 
health providers with our Guard units and how important that 
was to families.
    So this is an area that we can do a better job. I am glad 
to hear what you said about the PROMISE Act, and that is 
something that we have to really take a look at, be sure that 
that is followed through. We can write legislation, but, you 
know, we sometimes can't be sure that it is enacted the way--
and there are some very important issues in that. So thank you 
very much for being here.
    Dr. Porter. Congresswoman, if I may, I wanted to add 
something about the education and the legal advocates and legal 
assistance for education issues. I think it is important for 
the members of the subcommittee to--and the services to 
understand that simply assigning a JAG officer to the issue is 
not going to be sufficient. As you know, it requires somebody 
who has special expertise in education law, and I think that 
needs to be kept in mind as we proceed with this.
    Thank you.
    Mrs. Davis. Thank you.
    Ms. Speier. And, certainly, the special education law in 
one State can be different from the special education law in 
another State, and that is why you have to have local attorneys 
who specialize in special education in that State to really be 
able to provide expert services.
    Mr. Cisneros, you are recognized for 5 minutes.
    Mr. Cisneros. Thank you, Madam Chairwoman, and thank you 
all for being here today. And I especially want to thank our 
two military spouses for being here, for your sacrifice and the 
sacrifice of your families for our country.
    Ms. Norman, you kind of touched on the standardization or 
the lack of standardization amongst the services. So I kind of 
want to touch on that. And, really, you know, as the military 
operates now, it is very joint, you know, a lot of cross. You 
know, you may be on an Army base. You may be on an Air Force 
base. You may be in another service.
    And because there is a lack of standardization, and you are 
in--we will use your example. You are in the Navy program. When 
you have gone to these bases, or have you heard stories of 
families going to different bases, and not being in a non-Navy 
or non-Army from the branch that they are in, has there been a 
lack of service, or has it been harder to get services from the 
current program of the base that they might be on, the service?
    Ms. Norman. You are absolutely right. It seems to me that 
more and more there are more duty assignments at joint bases. 
And if you are Navy and on an Air Force base, you don't really 
have anyone to go to for your EFMP concerns. I know we just--we 
have had many families contact us and let us know that that has 
been a huge challenge for them, particularly--we were just 
talking earlier about Respite Care Program, which is a 
fantastic program. That is the single reason why we are still 
in the Navy, which offers 40 hours of respite per month.
    And a lot of folks are moving to these joint bases where 
they have no respite care, no one to talk to when they can't 
get on certain wait lists. It is a huge obstacle for them.
    Ms. Carrigg. So I think that it is not just respite, it is 
not just education. EFMP packets, if you are at a joint base, 
they have to be taken to the nearest installation that is your 
branch. So I know I spoke about, we were at an Air Force base. 
We had to drive to the nearest National Guard base with a baby 
in the hospital.
    Why, if we literally live on the Air Force base and there 
is an EFMP office there? The same is said when you do 
transfers. If you are transferring to a joint base, they don't 
always know you are coming because you are Army and you are 
transferring to a joint base that is run by the Air Force.
    Mr. Cisneros. So there is no current plan right now for 
you--allow you to kind of opt into the current system of the 
branch or the base that--or the service that operates the base 
that you are going to?
    Ms. Carrigg. No, there is not. So for respite care, for 
example, the Army has a different program for respite care than 
the Navy does. So you have to go through the Army for the 
program the Army uses. We live in DC. The nearest respite care 
providers for the Army are in Quantico. So we have not received 
respite care for any of our three children on EFMP since we 
have been here, and it has been 5 years.
    Mr. Cisneros. That is horrible. But that just really kind 
of stipulates, really, why it is so important that we kind of 
go and get to one system, so you don't really have to--the fact 
that you are going to a joint base that may be run by another 
service, now your child isn't receiving the services that they 
are entitled to, and so this is really where we need to go.
    The other area I want to kind of touch on again is 
something that you both have talked about, or really is the 
career path for the service member and really kind of putting 
them--you know, the lack of not being able to go everywhere 
where--because services may not be provided, especially going 
overseas, has this really affected a negative view amongst the 
families that you have dealt with and that you know really kind 
of caused a negative view of the EFMP program?
    Ms. Carrigg. So I can say that it absolutely has, and it 
really comes down to the fact that Joint Base Lewis-McChord is 
a perfect example of a perfect storm. We are sending all of 
these special needs families there. We are saying our service 
is there; you have to go there; you can't go somewhere else. 
And they get there and they are waiting 18 months for care. 
When your baby is 3 months old, 18 months is a very long time 
to wait.
    And there is this variability between where you are going 
to be able to go and where you are not. One family might only 
have an educational piece, but the education portion of EFMP, 
all they say is districts are required to provide FAPE. If they 
are providing a free and appropriate public education, which 
they are required by law, we can send you there.
    Nobody is verifying that they actually have the needs to--
that they can meet the needs of the children in the actual 
IEPs. Nobody reads those parts of the packet. The packet is 
useless.
    Ms. Norman. I want to address, sir--you were talking about 
career opportunities in the EFMP. And many EFMP families do opt 
to geo-bach [geographic bachelor], so that their spouses can go 
and serve their country for a year or 2 years while we stay 
behind, once we have finally found a location that can attempt 
to meet the needs of your child.
    There have been instances where I know families will write 
a letter, a waiver, to the EFMP coordinator saying, ``I 
understand that there are no services within one hour or within 
50 miles of the branch or the base that my spouse is going to 
be at, but I am willing to drive an hour and a half.''
    One example would be Newport, Rhode Island. I know that 
several have written letters to go to the Leadership War 
College there, but also writing a letter saying, ``I 
understand, but there is Boston Children's about an hour and a 
half away. So please, you know, consider this for this next 
location.'' But there are many, many EFMP families that are 
making those sacrifices and taking those burdens, knowing that 
the next location cannot meet the needs of their family.
    Mr. Cisneros. Well, I just want to thank you both, and all 
of you, for your testimony here today. My time has expired, but 
thank you again for the service that your family has provided 
to this country.
    I yield back.
    Ms. Speier. Do you want to do a second round or no? Okay. 
We are not going to do a second round, but Mr. Kelly does have 
one question. Okay.
    Mr. Kelly. And this is specifically to you, Ms. Norman. I 
mean, does the Navy or do the services pay any separation pay 
when you choose, okay, it is not really--do you understand what 
I am saying, though? Or that, you know, there is an additional 
BAH [Basic Allowance for Housing] if you are deployed and your 
family gets--for you to stay there when it is career enhancing. 
Is there--do they have any of those special pays? And, if not, 
would it be helpful if they did?
    Ms. Norman. It would be very helpful.
    Ms. Speier. All right. Ms. Carrigg, you indicated that you 
have no ECHO benefits because the closest provider of those 
benefits is at Quantico for your service; is that correct?
    Ms. Carrigg. No. So respite care, there are two forms of 
respite care, one through ECHO, one through the community 
service portion of the armed services. So for us, Army 
Community Services, EFMP respite care. So the nearest provider 
for EFMP respite care is through Quantico. And as far as ECHO 
care, because my child gets in-home nursing care, she doesn't 
get her ECHO care hours through ECHO.
    So, at this point, it is up to Medicaid to fund those 
hours, and they do. But if we didn't have Medicaid----
    Ms. Speier. So as a military family, if you had not taken 
advantage of Medicaid, you would have been paying for the 
operation and hospitalization out of your own pockets?
    Ms. Carrigg. The reality is we didn't have the deposit to 
give them. We had no way to pay them. They suggested we 
mortgage a house that we didn't have because we have always 
lived in military housing. I think that that is the most 
difficult part of this is we know we could have lost our 
daughter. We had days to come up with the money to pay for a 
surgery that we didn't have.
    Ms. Speier. And the reason why the military was unwilling 
to provide the surgery was what?
    Ms. Carrigg. The way it works when you bring a baby home 
through adoption is you have to submit a packet through the 
nearest installation DEERS [Defense Enrollment Eligibility 
Reporting System] office. Because we were Army and not Air 
Force, we had to go to the Army to do that. And when we 
submitted the packet, it takes them time to process it.
    So nobody could expedite it. We explained what the 
situation was, and they said, ``Well, 28 to 45 days it will be 
done.'' My baby was having surgery in less than 5.
    Ms. Speier. I see. All right.
    All right. Your testimony has all been very valuable to us. 
Thank you very much. We will take a, you know, 3-minute recess 
so that we can change out the panels. Thank you.
    [Recess.]
    Ms. Speier. Good afternoon. We would like to welcome now 
Ms. Carolyn Stevens, who is the Director, Office of Military 
Family Readiness Policy at the Department of Defense; Captain 
Edward Simmer, Chief Clinical Officer, TRICARE Health Plans, 
Defense Health Agency; Colonel Steve Lewis, U.S. Army, Deputy 
Director, DA [Department of the Army] Quality of Life Task 
Force and DA Family Advocacy Program Manager; Mr. Ed Cannon, 
Director, Fleet and Family Readiness, Commander, Navy 
Installations Command; Ms. Norma Inabinet, Deputy Director, 
Military Personnel Programs, Air Force Personnel Center; Ms. 
Jennifer Stewart, MSW [Master of Social Work], Manager, 
Exceptional Family Member Program, Headquarters U.S. Marine 
Corps; Ms. Jackie Nowicki, Director, K-12 Education, U.S. 
Government Accountability Office.
    Thank you all for being here. Ms. Stevens, you may begin.

  STATEMENT OF CAROLYN STEVENS, DIRECTOR, OFFICE OF MILITARY 
         FAMILY READINESS POLICY, DEPARTMENT OF DEFENSE

    Ms. Stevens. Thank you. On behalf of Mr. Matthew Donovan 
and a cadre of dedicated and expert professionals in Personnel 
and Readiness, thank you, Chairwoman Speier, Ranking Member 
Kelly, and members of the distinguished subcommittee for your 
continued support of our military families and quality of life 
programs.
    As a former military spouse, I care about issues impacting 
our military families, and I am personally committed to 
addressing quality of life issues. I appreciate the opportunity 
to appear before you today to highlight some of the 
Department's efforts in support of our military families and 
their adult family member or child who is enrolled in the EFMP.
    Through our many feedback mechanisms, we are aware that 
service members and spouses have concerns regarding the 
management and the execution of EFMP. And I want to take a 
moment to thank the witnesses today for sharing their very 
personal stories.
    I want to reaffirm the Department's commitment in 
addressing the challenges that the witnesses have brought forth 
today. These personal experiences that we hear, and the data we 
collect, combine to offer a broader understanding of the 
challenges facing our military families and help us to better 
define our courses of action.
    We can address some of these challenges head on, while 
others, such as education and off-installation services, 
require coordination with our partners and other Federal 
agencies, the States, and local education agencies.
    We are committed to balancing individual experiences with 
an evidence-informed strategy and have placed a special focus 
on the results of recent department-wide surveys and the 
conclusions of the recent GAO report. I would like to take a 
moment to highlight some of the initiatives that were included 
in my written testimony.
    We have re-energized the DOD coordinating committee for 
military families with special needs to ensure a senior 
executive-level oversight. We continue to refine the EFMP data 
repository, the OSN's centralized data collection system. We 
have developed and implemented a standard EFMP family needs 
assessment form. The form includes a component which provides 
for individualized services plans.
    We developed standardized family member travel screening 
forms and are working with Health Affairs and the Defense 
Health Agency to develop and publish policy. And we have 
engaged with our U.S. Department of Labor Land Grant University 
partners to assist in developing a staffing tool, and we have 
launched a pilot program that will assist the services in 
determining adequate staffing levels at each installation.
    Improving EFMP is a priority for the Department. We know we 
have more work to do. We thank the witnesses for their 
appearances today, and for continuing to advocate for both 
themselves and for others on this important topic.
    Thank you again for your continued support of our families. 
I look forward to your questions.
    [The joint prepared statement of Ms. Stevens and CAPT 
Simmer can be found in the Appendix on page 149.]
    Ms. Speier. Next, Mr. Lewis.

 STATEMENT OF CAPT EDWARD SIMMER, USN, CHIEF CLINICAL OFFICER, 
          TRICARE HEALTH PLANS, DEFENSE HEALTH AGENCY

    Captain Simmer. Chairwoman Speier, Ranking Member Kelly, 
and distinguished members of the subcommittee, thank you for 
the opportunity to discuss the very important issue of caring 
for exceptional military family members.
    At the Defense Health Agency, we are committed to ensuring 
every military child, and especially those with special needs, 
receive the healthcare services they need to read their maximum 
potential. We also recognize that family readiness is a key 
part of service member readiness. As a psychiatrist who has 
deployed to combat areas, I have seen firsthand the impact that 
concerns about family members and the care they are receiving 
can have on service member readiness while deployed.
    Collaborating with and supporting the services' Exceptional 
Family Member Programs is a very important part of our efforts 
to ensure family readiness. The DHA [Defense Health Agency] 
works closely with EFMP programs at the installation, service, 
and DOD levels. DHA support for EFMP and the families we serve 
includes identifying and evaluating families who qualify for 
EFMP, providing outstanding medical care and services to 
eligible family members, including through the Extended Care 
Health Option, also known as ECHO, and assisting with 
assignment decisions by providing information about available 
medical services at potential duty locations worldwide.
    TRICARE provides a very robust benefit with some of the 
lowest out-of-pocket costs of any health plan in the country. 
Our beneficiaries, who earned this benefit through their 
service to the Nation, deserve nothing less. DHA and our 
managed care support contractor partners work very hard to 
ensure our beneficiaries have access to high-value health care 
and services wherever and whenever they need it.
    Despite our best efforts, however, we know that we still 
have room for improvement. Access to care, especially 
subspecialty care, is challenging in some areas, particularly 
in remote areas where some of our bases are located.
    During our first panel today, we heard from families, and I 
very much appreciate their courage in coming forward and 
sharing their stories. But they have had significant problems 
accessing the care they need, and that is unacceptable.
    We can and should do better. We are committed to addressing 
these issues and finding effective solutions. Our contractor 
partners are continuously working to add high-quality providers 
to the TRICARE network, especially in areas of limited access, 
and we have expanded access at many military treatment 
facilities as well.
    We have also enhanced the telehealth benefit, including 
covering telehealth into the home to further increase access 
and have reduced barriers to receiving mental health care. We 
also offer a robust medical case management benefit.
    So thank you again for your continued support for our 
service members and their families, and I look forward to your 
questions.
    Ms. Speier. Thank you, Captain Simmer.
    Now Colonel Lewis.

STATEMENT OF COL STEVE LEWIS, USA, MS, DEPUTY DIRECTOR, QUALITY 
    OF LIFE TASK FORCE AND FAMILY ADVOCACY PROGRAM MANAGER, 
                     DEPARTMENT OF THE ARMY

    Colonel Lewis. Thank you, Chairwoman Speier and Ranking 
Member Kelly. On behalf of the over 43,000 soldiers who have 
family members with special needs, we are grateful for your 
diligent work, support, and focus on the area of the 
Exceptional Family Member Program.
    To the families and advocates who testified in the prior 
panel, thank you for helping us see ourselves and highlighting 
where we need to improve. The Secretary and the Chief of Staff 
of the Army established people as the number one priority, and 
I am here to attest to their commitment to the Exceptional 
Family Member Program, one of the most important programs in 
support of our most valuable asset: our people.
    As a professional social worker, I have dedicated my nearly 
30-year career to helping people in need, especially those most 
vulnerable and at risk. In my current capacity as the Deputy 
Director for the Army's Quality of Life Task Force, and the 
Chief of Family Programs, I have the distinct honor to apply my 
professional knowledge in order to manage critical programs and 
policy that will improve the well-being of soldiers and 
families.
    I am committed to ensuring that special needs family 
members are the benefactors of the Quality of Life Task Force 
initiatives and that their equities are represented as we 
address quality of life.
    The individuals and teams established to support the Army's 
Exceptional Family Member Program share a unified purpose--to 
ensure a soldier's assignment is fully capable of meeting the 
medical and/or educational needs of the soldier's family 
member. To achieve this purpose, the EFMP team, consisting of 
healthcare providers, care coordinators, assignments managers, 
family support staff, educators, child needs staff, and the 
soldiers' commander, just to name a few, are charged to work 
collaborative with the soldier and his or her family members to 
achieve the right fit.
    The Exceptional Family Member Program is the safety net of 
resources and support for our most vulnerable and at-risk 
families in order to enhance readiness and promote resilience. 
However, we know that challenges remain and we have room to 
improve. We need to make sure that we are effectively 
connecting and communicating with soldiers and families in 
order to help them leverage predictable and quality 
installation and community resources to assist them.
    We are actively working on solutions to make the enrollment 
and assignment process more effective and transparent to the 
soldiers and family members. And, finally, we continue to build 
in processes that include the voice of the soldier and his or 
her family members as we focus on the Secretary and the Chief 
of Staff of the Army's people strategy.
    I greatly appreciate the opportunity to hear from the 
committee members and the previous witnesses on how we can 
improve. We must get this right. In the words of the Chief of 
Staff of the Army, General McConville, ``Winning matters.'' The 
Army wins and our families win when we support the soldiers and 
families in the Exceptional Family Member Program.
    And, again, thank you for this opportunity. I look forward 
to your questions.
    [The prepared statement of Colonel Lewis can be found in 
the Appendix on page 169.]
    Ms. Speier. Thank you.
    Mr. Cannon.

   STATEMENT OF EDWARD J. CANNON, DIRECTOR, FLEET AND FAMILY 
        READINESS, COMMANDER, NAVY INSTALLATIONS COMMAND

    Mr. Cannon. Chairwoman Speier, Ranking Member Kelly, and 
distinguished members of this subcommittee, thank you for this 
opportunity to testify on the Navy's Exceptional Family Member 
Program.
    I would also like to thank the family members who testified 
before this panel and the family members in the room today. 
Thank you for being here, for sharing your experiences, and for 
allowing us to continue the conversation with you to work to 
better meet your needs.
    The Navy asked your spouses to be ready to serve and ready 
to deploy, and we need to continue to do better to ensure that 
you are supported when your loved ones are called to serve.
    The Chief of Naval Operations has stated that stronger 
families make a stronger fleet. I firmly believe Navy's 
Exceptional Family Member Program plays a critical role in 
obtaining mission readiness for our sailors. We must ensure our 
Navy families have the medical and educational resources they 
need for their exceptional family members.
    Enrollment in Navy EFM has tripled since 2016, and today we 
have nearly 23,000 Navy families enrolled. The Navy has 85 
full-time personnel supporting our Exceptional Family Member 
Program. We have increased our outreach to families, expanded 
training, and increased the resources available to family 
support staff at Navy installations.
    In fiscal year 2019, Exceptional Family Member Program case 
liaisons at Navy installations held thousands of private 
consultations with sailors and family members and offered 
hundreds of group classes and workshops. Case liaisons also 
worked with families to develop individual service plans, 
coordinate non-medical care, work with local school districts, 
and provide information and referrals for community support 
resources.
    While I am proud of our accomplishments, I know we must 
find ways to improve. We will continue to seek feedback and to 
listen to the needs of our sailors and their families. This 
dialogue and the lessons we are learning from our sister 
services will help us to make changes to the program and 
improve the support we provide to Navy families.
    Thank you for your sustained commitment and unwavering 
support of the Navy's Exceptional Family Member Program. I look 
forward to your questions.
    [The prepared statement of Mr. Cannon can be found in the 
Appendix on page 174.]
    Ms. Speier. Thank you, Mr. Cannon.
    Ms. Inabinet. Did I pronounce that right?

   STATEMENT OF NORMA L. INABINET, DEPUTY DIRECTOR, MILITARY 
                       PERSONNEL PROGRAMS

    Ms. Inabinet. Ms. Inabinet. Thank you, ma'am. Appreciate 
it.
    Chairwoman Speier, Ranking Member Kelly, and distinguished 
members of the subcommittee, thank you for your continued 
support of the armed services and your interest in the 
Department of the Air Force's Exceptional Family Member 
Program.
    It is an honor to speak to you today on behalf of our air 
and space professionals and their family. I would also want to 
thank our family that are witnesses today and appreciate their 
advocacy for this very important program.
    Today we have 33,181 Active Duty members coded as EFMP 
sponsors and 50,987 family members that are enrolled in EFMP. 
The Department of the Air Force Exceptional Family Member 
Program is based on a foundation of collaboration, 
coordination, and care, among three EFMP components: medical, 
family support, and assignments.
    The Department of the Air Force has made strides by 
reforming EFMP processes and expanding family support 
capabilities to our EFMP members, and I would like to take the 
opportunity to highlight some of those. The following are a 
few.
    In November 2019, the Department of the Air Force partnered 
with CareStarter, a patient-focused IT [information technology] 
company that offers mobile app capability to access real-time 
medical, therapy, and educational information by location. It 
also offers a capability to create a unique profile for each of 
our family members by diagnoses and age.
    The CareStarter Program is currently being tested at Travis 
Air Force Base, California, and we are excited about the 
possibility of linking CareStarter to our assignment process as 
it will provide valuable information to our EFMP families when 
they are applying for or are selected for new duty assignments.
    Since 2017, 59 additional family support coordinator 
positions were added to our airmen and family readiness 
centers. In total, the Air Force has 99 EFMP force support 
coordinators and 4 program management positions for a grand 
total of 103 personnel supporting 78 main operating 
installations and 4 satellite offices for a total of 82 
locations.
    Our coordinators are committed to enhancing the quality of 
life of our special needs families by providing them assistance 
and information on community services and developing family 
assessments and individual plans.
    The Department of the Air Force also launched a very 
comprehensive EFMP communications strategy that are consisting 
of face-to-face and virtual annual and quarterly events. The 
intent of these events is to inform our EFMP members and 
families about the available resources, assistances, and 
processes, but most importantly is to get real-time feedback 
from our airmen and their families.
    Our annual EFMP virtual Facebook Live webinar in September 
of 2019 reached a notable 27,000 participants. The feedback we 
have received to date has led to numerous process improvements 
and have provided a more positive experience for our air and 
space professionals and their families.
    While the Department of the Air Force has made strides 
towards enhancing our EFMP program, we know there is still much 
to be done. Our team of professionals will continue to evaluate 
our processes and are committed to making changes that will 
positively impact the quality of life, the well-being, and the 
readiness of our airmen.
    Chairman Speier, Ranking Member Kelly, and distinguished 
members of our subcommittee, thank you for your continued 
advocacy and representation today. We appreciate your support.
    [The prepared statement of Ms. Inabinet can be found in the 
Appendix on page 179.]
    Ms. Speier. Thank you.
    Ms. Jennifer Stewart. Now teach us all what you are doing 
right in the Marine Corps.

STATEMENT OF JENNIFER STEWART, MSW, MANAGER, EXCEPTIONAL FAMILY 
    MEMBER PROGRAM, HEADQUARTERS UNITED STATES MARINE CORPS

    Ms. Stewart. Thank you, ma'am. Chairwoman Speier, Ranking 
Member Kelly, and distinguished members of the subcommittee, on 
behalf of your Marine Corps, I would like to thank you for 
inviting me here today to discuss our Exceptional Family Member 
Program.
    We are grateful for your continued active engagement in 
making lasting improvements to the overall health, well-being, 
and quality of life for Marines and their families. I want to 
thank you for holding this hearing, the family caucus in 
October, and the more informal briefing last month. These 
events have put vital focus on the EFMP, both the things we do 
well and the things we can improve upon.
    I appreciate the families who have bravely shared their 
personal stories today in an effort to effect change. They have 
shared the challenges they face with transferring and 
establishing medical care and educational plans, receiving 
consistent support from EFMP staff, and managing the demands of 
career and family while advocating and caring for a family 
member with a disability.
    While we will never be able to remove all the challenges 
and stresses, we must continue to strive to do what we can to 
alleviate them. Customer and stakeholder engagement and input 
has been and will continue to be a key element of your Marine 
Corps EFMP.
    Customer feedback was central to the transformative changes 
we made in 2007, assessing customer satisfaction with our 
program in 2013 and 2015, and most recently a vital element of 
our 2019 program evaluation effort. We are committed to 
evaluating the effectiveness of our program and making 
necessary changes when evaluation indicates we have missed the 
mark.
    A 2017 study analyzed the career progression of more than 
20,000 EFMP-enrolled Marines compared to their non-enrolled 
peers over the course of 25 years. It found that EFMP 
enrollment does not negatively impact career progression in the 
aggregate. Marines enrolled in EFMP remain in service slightly 
longer than and achieve the same rank as their non-enrolled 
peers, and they achieve this highest grade in the same or 
shorter amount of time as the average of their non-enrolled 
peers.
    We are looking forward to the results of a comprehensive 
fiscal year 2019 program evaluation of EFMP that included, 
among other things, a customer needs assessment, customer and 
staff satisfaction survey, staffing model review, and 
validation of our measures of performance and effectiveness. We 
anticipate the results in the spring of this year.
    Taking care of Marines and their families is a key element 
of overall readiness and combat effectiveness. The adage ``We 
recruit Marines; we retain families'' is as true today as ever.
    Our EFMP has come a long way since its inception. We 
realize that with our success stories, our other stories of 
continued challenge and stress, we must continue to work hard 
to help those who feel the program has not done all it can. By 
ensuring that we take care of EFMP-enrolled Marines and their 
families, we fulfill our responsibility to keep faith with the 
honor, courage, and commitment they have so freely given.
    Thank you for the opportunity to present this statement on 
this important topic, and I am happy to answer any questions 
you may have.
    [The prepared statement of Ms. Stewart can be found in the 
Appendix on page 187.]
    Ms. Speier. Thank you, Ms. Stewart.
    Ms. Nowicki.

  STATEMENT OF JACKIE NOWICKI, DIRECTOR, K-12 EDUCATION, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nowicki. Good afternoon, Chairwoman Speier, Ranking 
Member Kelly, and members of the subcommittee. Thank you for 
inviting me here today to discuss GAO's work on DOD's 
Exceptional Family Member Program.
    As we have heard, military families with special needs face 
unique challenges, which are complicated by frequent moves, and 
families are often frustrated by a program that is intended to 
help them but does not always meet their needs.
    In May 2018, we made three recommendations to remedy 
significant weaknesses with OSN's oversight of the EFM 
[Exceptional Family Member] programs. DOD agreed with all of 
them.
    My statement today focuses on the two main types of 
challenges we identified and the status of DOD's efforts to 
address them. First, we found wide variation, as you know, in 
EFM programming among the services, which could lead to gaps in 
assistance. For example, only the Marine Corps specified a 
minimum frequency with which EFM families should be contacted 
by their family support providers.
    The Air Force and Army did not have requirements for 
regular contact, and the Navy only required contact for certain 
families. The Marine Corps, as you know, is the only service to 
employ special education attorneys, which may have particular 
implications for families who believe their children are not 
receiving special education services outlined in their IEPs or 
who are having difficulty obtaining an IEP.
    Special education is often an area of great frustration 
when families move from State to State as the Federal special 
education law gives States a fair amount of flexibility to 
determine eligibility for services and defined disability 
categories, meaning a child could be eligible for services in 
one State but not in another, even with no change in diagnoses.
    Officials from the other branches told us that they have 
found other ways to try and help families who are seeking 
special education legal advice. For example, they might connect 
families to outside organizations that provide specialized 
legal support, though often at the family's expense, or they 
might refer them to general military lawyers, though these 
attorneys may lack expertise in special education law.
    At the time we did our work, we also found that the Air 
Force EFM program did not include a training component for EFM 
families, and neither the Air Force nor the Navy provided 
family support relocation services to EFM families, both of 
which are required by DOD policy.
    Further, although services' plans are used to document the 
services and support each family needs, and are required, we 
found that there are tens of thousands of military families who 
lack them. In April 2017, the services--DOD directed the 
services to allocate sufficient funds and resources, including 
staffing needed to achieve DOD's policy objectives, for the EFM 
programs.
    However, DOD has not provided guidance nor developed a 
standard as to what sufficient funding and resources look like, 
relying instead of each service to determine this for 
themselves. As a result of these types of shortcomings, we 
concluded that some families with special needs may not get the 
assistance they require, particularly when relocating.
    We recommended that DOD assess the extent to which each 
military service provides sufficient funding and resources for 
their programs, and the extent to which service plans are being 
developed, and that DOD include this information in a gap 
analysis in its annual report to Congress on EFMP.
    DOD has made only limited progress implementing this 
recommendation because, for example, it only began collecting 
data on services' plans in the last quarter of 2019.
    Regarding staffing and funding, DOD officials told us last 
April that they were piloting a staffing tool to help determine 
the number of family support providers needed at each 
installation, and they expected the pilot to last for 2 years.
    The second group of challenges we identified broadly 
relates to OSN's oversight of the EFM programs. For example, we 
found that DOD lacked a common set of performance measures for 
EFM programs, and is, therefore, unable to fully assess the 
effectiveness of assignment coordination and family support at 
each installation.
    DOD officials told us that past efforts to create these 
types of measures have been unsuccessful because the services 
cannot agree on what these measures should be. OSN also lacks a 
process to systematically monitor the EFM programs, and instead 
relies on each service to self-monitor.
    As of January, our recommendations to develop these 
performance measures and develop a systematic monitoring 
process remain unaddressed, and DOD remains unable to determine 
the adequacy of the services' EFM programs as required by 
Federal law.
    In conclusion, developing a policy for families with 
special needs that works across DOD's four military services is 
challenging, given DOD's size and complexity and mission. But 
the lack of direction from DOD on how to provide EFM services, 
or what the scope of those services should be, means that some 
service members get more or less from the EFM every time they 
relocate, making an already stressful situation worse.
    And until DOD is able to assess EFM performance across all 
its services, it will not be able to ensure that military 
families with special needs receive adequate, consistent, 
reliable support no matter where they are stationed.
    This completes my prepared remarks, and I look forward to 
responding to any questions you may have.
    [The prepared statement of Ms. Nowicki can be found in the 
Appendix on page 194.]
    Ms. Speier. Thank you, Ms. Nowicki.
    So at the outset, let me say this. I find the GAO report to 
be stinging in terms of its criticism of many of the services. 
And it is not good enough to come here and make happy talk 
about how you want to be helpful and how grateful you are for 
the courage of these parents that come forward and speak about 
their experiences.
    It reminds me a whole lot about the many hearings we had on 
sexual assault in the military and how every service official 
who came said they had zero tolerance for it, but it continues.
    So I am telling you at the outset that we are going to be 
hawks on this. And we are going to have all of you come back 
every 3 months to give us a briefing on whether or not you have 
met the specific requirements that GAO has asked you to do, 
until you get it done, because it sounds like it is not 
happening.
    So let me start with this chart that is in our--let me ask 
you, first, this question. Have any of you read the statements 
of the two parents that testified today? Just raise your hands. 
Only two of you. No, you have not.
    Okay. For your homework, I would like for each of you to 
read their statements, because within their statements, 
particularly Ms. Carrigg's, are numerous vignettes about other 
service member families and what they have dealt with.
    I don't think there is a true appreciation of what these 
families are going through. We have another room filled with 
families here. We have an overflow crowd of families who came 
today, none of whom are testifying, but all of whom have issues 
with the EFMP program.
    So the chart we have shows that the Marine Corps has 107 
full-time-equivalent family support staff. It is one of the 
smallest branches. It has 107. How many does the Navy have? 71. 
How much does the Army have? 119, and yet you have manyfold 
more service members and manyfold more family members who are 
enrolled.
    In fact, in the Marine Corps, they have 107 full-time-
equivalent family support staff for 11,000 families. The Army 
has 119 family support for 54,000 families. So there should be 
no question in anyone's mind that the services the families in 
the Army are receiving are not adequate.
    So I guess my first question is, Ms. Stewart mentioned that 
they were doing satisfaction surveys within the Marine Corps of 
the EFMP program. Have any of the other services done that?
    Colonel Lewis. Chairwoman Speier, for the Army, I would 
like to say back in February of last year, Secretary of the 
Army Esper at the time, was very concerned about the EFMP 
program, and he directed that the Army conduct a comprehensive 
survey of the families in the--enrolled in the EFMP program.
    We reached out to over 21,000 family members enrolled in 
the EFMP program, received back 3,000 surveys, which allowed 
us, again, to identify very similar findings that were both in 
the GAO report but also what was described today that we still 
have gaps and vulnerabilities in the program.
    Ms. Speier. So what is your game plan to address those 
gaps? I mean, if you only have 119 family support staff for 
54,000 families, you need to add like 400 to meet what the 
Marines are doing for their families.
    Colonel Lewis. The survey did allow us an opportunity to 
recognize that we do have challenges in reaching out and 
engaging and communicating with families to ensure that they 
know what family support services are available. The staffing 
for the EFMP program, we do use utilization trade as--
utilization data as well as enrollment trends that help us to 
identify the staffing available previously.
    Ms. Speier. Ms. Stevens, you said that you have re-
energized this advisory panel. But to my knowledge, there 
aren't any parents that serve on them; are there?
    Ms. Stevens. There are no parents on the coordinating 
committee. We do, however, have a family advisory panel made up 
of seven family members nominated by the service. We meet with 
them on a quarterly basis. That is where our families come into 
play.
    Ms. Speier. Why wouldn't you have family members serving on 
this advisory panel?
    Ms. Stevens. So the advisory panel that I reference, the 
coordinating committee for special needs is designed to bring 
together Health Affairs, our General Counsel, representatives 
from the military departments, where we are talking through 
some of the very processes we have discussed, with a particular 
focus this past year on standardization.
    So we are looking for leadership from the military service 
level in those organizations.
    Ms. Speier. You know, that was a lot of alphabet soup to 
me. I mean, if in fact you have got programs that aren't 
working for the families, wouldn't it behoove you to bring the 
family members in to find out what their needs are?
    Ms. Stevens. We do rely on the family advisory panel for 
one means of getting information from the family. In the next 
couple of months, we will be launching a family feedback tool, 
which will allow us to get much more current feedback from 
families as they access family support systems.
    Ms. Speier. All right. Thank you. My time has expired.
    Mr. Kelly.
    Mr. Kelly. I am going to do more talking than I am 
listening, and that is probably--that is against my better 
judgment and what I know is not--but number one is, if it was 
easy, or if it wasn't hard, somebody would already been doing 
it. So you guys are executives. You get paid to do hard things. 
You get paid to make decisions that makes people's lives 
better.
    So I want to start with, number one, I heard a whole lot of 
talking about processes. We are not talking about processes or 
processes or however you correctly enunciate and pronounce 
that. What we are talking about is people. People. And we are 
talking about those very most vulnerable people that we should 
be helping.
    We shouldn't make it harder. We have got to make it easier. 
And so I ask each and every one of you--and this isn't--this 
is--each one of you should ask yourself every single day: what 
have I done today that made their life better? What have I done 
today that made those kids or family members or that soldier or 
that sailor, what have I done that made it better today?
    Because I can guarantee you every one of you can find one 
simple thing every day you can do, and we are not doing that 
because we are talking about processes. We are not talking 
about people. But if it is your people, we talk about it.
    The second thing--and I do want an answer--just when was 
the last time you met with an EFMP family that you did not 
know, and how often do you do that? How often have you done 
that in the last 3 months? When is the last time you met with 
an EFMP family in their place and met with them and see what 
their issues are, and how often do you do that?
    Ms. Stevens. Sir, I have not personally met with an EFMP 
family in the last 3 months. My staff----
    Mr. Kelly. That is good.
    Ms. Stevens. Thank you.
    Captain Simmer. I have met with an EFMP family about a 
month ago, sir.
    Mr. Kelly. Okay.
    Colonel Lewis. Sir, I have not met with an EFMP family in 
the last 3 months.
    Mr. Cannon. Sir, I have not met with an EFMP family member 
in the last 3 months.
    Ms. Inabinet. Sir, I have met with an EFMP family within 
the last week.
    Ms. Stewart. I have met with families in the last week, and 
I talk to families every day on the phone.
    Mr. Kelly. And you are opting out because that is not part 
of your job. It is a hard question for you.
    And I don't do that--we so often get at high levels, we 
have got to walk around. You have got to talk to the people 
that it is impacting, and you have got to make it personal. And 
if it is not personal, we are not going to get the right 
results, because every one of these people are people, and we 
can all do things.
    You guys have amazing power in your jobs. You have amazing 
power, and we let all of this bureaucracy make the decisions 
that you are allowed to make. And if you have the authority, 
take it and use it for good. Use it to help those families. And 
if you don't have the authority, you ask me and Chairwoman 
Speier, and I promise you, we may not get it, but we are going 
to bust our tail trying. That is how important this is to us.
    General McConville says, ``People first, winning matters, 
and Army strong.'' I will tell you people first. You can't take 
care of people if you are not taking care of their family, and 
I know that General McConville agrees with that. I know at his 
level winning matters. It matters to readiness that these 
warriors are able to go down range without worrying about what 
they do.
    So winning matters, and that means winning with their 
family. That means for you, in my opinion--and I won't quote 
General McConville--but what that means is the little things I 
was talking about, winning every day to make those service 
members' lives better. Winning every single day, even if it is 
a small thing, win every single day. Measure winning.
    And the final thing is Army strong. Strong families equal a 
strong Army. And my dad, the smartest guy I ever knew with a 
high school education, used to say, ``We do well the things 
that we measure.'' If we don't measure, if we don't have things 
that show, if we are not doing what the GAO says, if we don't 
have our own parameters and criteria and things that we intend 
to make, we are not going to get better. You have got to 
measure it or you won't do it better. You have got to be able 
to articulate the measurement of what makes us better.
    Oh my goodness. I am just--here is--let me just tell you 
all a few things that I think you can do. Number one is let's 
either get the authorities with TRICARE--that when someone is 
ready to move, when they get their notification that they are 
moving, a PCS, they immediately get enrolled in the waiting 
list. Immediately. That is easy. So just tell us what you need 
from us to make it happen.
    Travel--you know, we had the thing at JBLM where they are 
50 miles, but you have got to get on a ferry and everything 
else, so we can't pay it. Holy cow, surely a two-star general 
or one-star general somewhere can write that and say, ``You are 
an exception, and we are going to pay your travel for this.'' 
Surely we can do that when it takes a half a day to get there 
and a half a day to get back, but it is not in the 50-mile.
    I am sorry. I am going to go just a little over, 
Chairwoman. I am going.
    BAH and separation pay, you heard me say that today. Holy 
cow. I mean, surely at the two-star level we can say if a 
person chooses a promotion assignment and they are separated 
from their family, we are going to give them separation or the 
additional BAH. Those are easy fixes.
    And I think there is one more, but I am going to leave with 
that.
    And, Ms. Nowicki, if you would just tell us how to get 
somebody else engaged, so we can like the Marine Corps, but 
these school systems should be compliant. And I would really 
appreciate any thoughts you have after the hearing on that.
    Thank you, Chairwoman, and I yield back.
    Ms. Speier. All right.
    Ms. Haaland.
    Ms. Haaland. Thank you, Chairwoman, and thank you to the 
panelists and the families for being here today and for sharing 
your concerns and ideas on how we can improve the care for EFMP 
families.
    As some of you may know, my father served in the Marines 
for 30 years. Having been raised in a military family, I am 
deeply interested in how we care for our military members and 
their families. In my district, I have 475 EFMP families. While 
many families have expressed appreciation for the Airmen and 
Family Readiness Center, they have also shared their 
frustrations with other aspects of the program.
    They can quickly access forms and get them processed, but 
they struggle to find someone knowledgeable enough to help them 
navigate all of the resources and the related educational and 
medical system.
    One family has been in the military for 17 years, was 
recently surprised to learn they are eligible for a service 
dog. They learned this through their own research, not from 
help of anybody. Another constituent equated navigating through 
EFMP to learning a foreign language.
    So I want to just put this question out there, and whoever 
would like to answer it, I think it is important for all of 
you. But who is responsible for ensuring EFMP families 
understand the benefits and resources available to them? And 
what steps do you propose the DOD take to resolve this gap in 
information and comprehensive care?
    Ms. Stevens.
    Ms. Stevens. Thank you for that question. I would like to 
start with the who is responsible piece, if I may. We recognize 
that our families have an overload of information at times, and 
it is very hard to know where to look and who to turn to.
    And one of the initiatives that we have in place that is 
ready to launch in about 2 months is something called EFMP and 
Me. EFMP and Me is a web application that allows a family to 
drill down in subject areas that are either of interest to them 
or for which they may need particular services.
    The purpose behind EFMP is to help remove the noise of too 
much information, provide checklists that can help a family 
determine the kinds of questions they need to be asking, point 
them in a direction for individuals who can help them with some 
of their questions.
    Regarding your question about medical care, I would have to 
defer.
    Captain Simmer. So I think for medical care, ma'am, it is 
very important that we provide a number of different sources of 
information, make sure that information is reliable, accurate, 
and at a level that the family can use.
    And I think we have a number of ways that we do that 
currently. Our contractors have educators located on major 
bases to teach them about the TRICARE benefit and their health 
benefit. All of our military treatment facilities provide 
education to our beneficiaries as well.
    We also have two projects that we are launching now. One is 
the TRICARE Select Navigator Program, thanks to this committee, 
where we are going to have navigators for--where we will have 
navigators for our TRICARE Select patients with complex medical 
problems, and their families, who will help them find the right 
care, find the best quality care, and help them understand what 
the out-of-pocket costs will be in advance.
    So that is a very important program for us that we are 
rolling out. We also work very closely with, as I mentioned 
previously, our Medical Case Management Program. Those folks 
help our patients understand where to get care. They help with 
transfers of care when they move from one location to another, 
and make sure that they know what benefits are available for 
their family member and get them the help that they need.
    Ms. Haaland. Thank you so much.
    I want to move on to another question in the interest of 
time. I understand that with EFMP there are several tiers of 
severe and non-severe disabilities that address educational and 
physical needs. But I have heard from families that their 
child's conditions are not adequately being assessed, and that 
many military families are being left behind.
    They have expressed challenges in finding appropriate care 
and resources for conditions that are not even listed with 
EFMP, causing them to miss time at school and creating 
unacceptably high out-of-pocket medical costs. For example, the 
limited pain management in some families not enrolled in EFMP 
has led to emotional distress and even depression in some 
patients.
    How does TRICARE and the services assess what conditions 
should not be considered and diagnosed as debilitating within 
EFMP?
    And, Mr. Simmer, I guess you would be best to answer that 
as well.
    Captain Simmer. So I can certainly answer for the medical 
part of that. You know, our providers, especially those in the 
military treatment facilities, are familiar with which 
conditions may be limiting, which conditions should be referred 
for potential enrollment in the EFMP program. They work with 
families to identify, you know, the level of severity and help 
the family determine, should we apply for EFMP or not.
    In the end, the family makes that decision, but certainly 
our providers can help the families understand the level of 
severity and the potential implications of that condition in 
the family's future.
    Ms. Haaland. Thank you.
    Chairwoman, I yield.
    Ms. Speier. Thank you, Ms. Haaland.
    I think you have heard from a number of us today about our 
dissatisfaction with what we have heard. I can just state for 
myself that we are going to fix this this year. And we are 
going to start off with town halls, so that all of the people 
that came here today are going to have an opportunity to tell 
us what their experiences are.
    And I am going to ask each of you to come to those town 
halls. They may be in the evenings when people can get off 
work, and we are going to find out the gravity of this issue 
service by service.
    And I would say to you, Ms. Stevens, that we could solve a 
lot of our problems if we just take the Marine Corps model and 
implement it in every one of the services. That would be a 
really good first start, because they obviously get it. And the 
GAO has made it crystal clear that part of what is successful 
is when you have contact with the families.
    And in the Marine Corps, they have contact, did you say 
monthly?
    Ms. Nowicki. Chairwoman, they specify a level of contact 
that they are supposed to have, but quarterly, quarterly 
contact.
    Ms. Speier. Quarterly. And if I recall correctly in your 
report, in one or two of the services there may be no contact 
the entire year. So we are going to change the system, so it is 
responsive to the families, because words don't have any weight 
unless they are followed up with actions.
    And you can all say that we are here for the families, but 
unless we are going to show it by action, we are not achieving 
that result. And these families deserve so much more. They are 
struggling not just with being military families, and the 
normal course of being moved every 3 or 4 years, or having 
spouses that are away from them, or all of the other trials and 
tribulations. They also have kids with special needs, and we 
have got to recognize there is a high propensity for that in 
the military evidently, and we have got to address it.
    It is going to take resources, but there is lots of ways 
that we can provide those resources and take them from other 
less significant needs in the Federal Government.
    So that is my commitment to all of the families that are 
here. And I am going to have Ms. Nowicki become my best friend 
over the next few months, and I am sure that Mr. Kelly will as 
well, because we are going to make sure that she can be able to 
come back to us in short order and say that all of the services 
have followed through on all of the recommendations.
    So with that, we stand adjourned.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                            February 5, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 5, 2020

=======================================================================

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            February 5, 2020

=======================================================================

   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 5, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. What is the percentage of EFMP families that homeschool 
by service?
    Colonel Lewis. The Army does not track families that are 
homeschooled, however based on data from the Military Children 
Education Coalition and Military Family Advisory Network, approximately 
6-9% of military families elect to pursue homeschooling.
    Ms. Speier. What is the percentage of senior leaders (0-6 
promotable and above) that are enrolled in EFMP?
    Colonel Lewis. Currently 2.3% of Senior officers have family 
members enrolled in EFMP. This represents 23.6% of officers in the pay 
grade O-6 to O-10.
    Ms. Speier. What is the percentage of EFMP families that homeschool 
by service?
    Mr. Cannon. The Navy's Exceptional Family Member Program does not 
track the number of enrolled families who homeschool their children.
    Ms. Speier. What is the percentage of senior leaders (0-6 
promotable and above) that are enrolled in EFMP?
    Mr. Cannon. As of March 6, 2020, approximately 2.5 percent of 
enrollees in the Navy Exceptional Family Member Program are senior 
officers at the O6, O7, O8 and O9 level.
    Ms. Speier. What is the percentage of EFMP families that homeschool 
by service?
    Ms. Inabinet. Department of Air Force does not track this data.
    Ms. Speier. What is the percentage of senior leaders (0-6 
promotable and above) that are enrolled in EFMP?
    Ms. Inabinet. Total GOs/GO selects: 323 EFMP GOs/GO selects: 57 
Percentage: 18% Total O-6/O-6 selects: 4136 EFMP O-6/O-6 selects: 988 
Percentage: 24%
    Ms. Speier. What is the percentage of EFMP families that homeschool 
by service?
    Ms. Stewart. The Marine Corps does not collect data on the number 
of families that elect to home school their children.
    Ms. Speier. What is the percentage of senior leaders (0-6 
promotable and above) that are enrolled in EFMP?
    Ms. Stewart. As of 31 January 2020, there were 835 (O6 (select)-
O10) Officers in the Marine Corps. 163, or 19.52%, were enrolled in 
EFMP, on 1 February 2020. Data Sources: ALNAV 071/19, FY21 U.S. MARINE 
CORPS COLONEL SELECTIONS Total Force Data Warehouse, DoR 31 January 
2020 USMC EFMP Case Management System, DoR: 1 February 2020
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. ESCOBAR
    Ms. Escobar. Ms. Stevens, there is a demonstrated higher occurrence 
of eating disorders and disordered eating in military children, can you 
discuss what OSD and the services are doing to identify and treat 
eating disorders amongst our families? Is there specific programming to 
address this challenge?
    Ms. Stevens. The Behavioral Health Clinical Community, charged with 
diagnosing and treating issues such as eating disorders, typically 
addresses these concerns. On the prevention side, installation youth 
programs offer opportunities to engage in programming that encourages 
healthy life decisions; this includes healthy eating and exercise.
    Ms. Escobar. Captain Simmer, TRICARE permits military families to 
receive residential treatment for substance use disorder at any age, 
however, it limits residential treatment for psychiatric conditions 
like eating disorders to under 21 years old. Research shows that the 
average age of onset for an eating disorders such as bulimia and binge 
eating disorder occurs between the ages of 21 and 26 years old. 
Children in military families suffer higher occurences of disordered 
eating. Why does TRICARE limit treatment coverage for military families 
below the average age of onset? Will you reconsider this cut off in 
light of this evidence?
    Captain Simmer. TRICARE is committed to ensuring our beneficiaries 
with eating disorders receive high value, evidence-based care. In 
support of this, TRICARE currently covers a broad range of evidence-
based treatment for eating disorders, including inpatient, partial 
hospitalization, intensive outpatient, and outpatient behavioral health 
treatment. In addition, since eating disorders often lead to medical 
problems, the full range of medical and medication treatments are also 
covered. Residential treatment center (RTC) care when psychologically 
necessary is covered as well, but only to age 21. This limitation, 
which applies to use of residential treatment for all mental health 
disorders, not just eating disorders, is found in regulation at 32 CFR 
199.6(b)(4)(vii). A TRICARE Final Rule (regulation) issued in 2016 
reaffirmed the agency's determination that RTC care is available to 
only pediatric and adolescent beneficiaries. The broad range of 
treatment settings already currently available to adult beneficiaries 
with eating disorders ensures they can receive effective treatment even 
without access to RTC care. A previous review of the evidence did not 
show that RTC care provided any advantage over other types of care for 
eating disorders that are already covered. As a result, the Department 
currently has no plans to add RTC care for eating disorders; however, 
it will perform another review of the literature to determine if new 
evidence has emerged indicating that RTC care should be covered.

                                  <all>
</pre></body></html>
